<html>
<title> - VICTIMS AND THE CRIMINAL JUSTICE SYSTEM: HOW TO PROTECT, COMPENSATE AND VINDICATE THE INTERESTS OF VICTIMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




VICTIMS AND THE CRIMINAL JUSTICE SYSTEM: HOW TO PROTECT, COMPENSATE AND 
                   VINDICATE THE INTERESTS OF VICTIMS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

                           Serial No. 109-87

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 _____


                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
26-054 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel

                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                          David Brink, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel



                            C O N T E N T S

                              ----------                              

                           FEBRUARY 16, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................     3

                               WITNESSES

Ms. Collene Thompson Campbell, National Chair, Force 100
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Ms. Mary Lou Leary, Executive Director, National Center for 
  Victims of Crime
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
Kathryn Coffman, M.D., Medical Director of Childhelp Children's 
  Center, St. Joseph's Hospital and Medical Center
  Oral Testimony.................................................    14
  Prepared Statement.............................................    17
Ms. Phyllis Turner Lawrence, Independent Consultant, Restorative 
  Justice and Victims Services
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29

 
VICTIMS AND THE CRIMINAL JUSTICE SYSTEM: HOW TO PROTECT, COMPENSATE AND 
                   VINDICATE THE INTERESTS OF VICTIMS

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chairman of the Subcommittee) presiding.
    Mr. Coble. Good morning, ladies and gentlemen. We welcome 
you to this morning's hearing, which will examine how victims 
fare in our criminal justice system.
    Too often we focus on enhancing penalties and new 
strategies to combat crime and seem to overlook the need to 
ensure our criminal justice system best serves those it is 
intended to protect. When someone has fallen prey to a criminal 
act, they've been victimized. Victimization can be emotionally 
and financially overwhelming and creates an obvious burden upon 
society.
    Although crime prevention reduces the incidence of 
victimization, it does not ensure that victims are effectively 
compensated. In a 1996 study, conducted by the National 
Institute of Justice, the calculated loss per victim ranged 
from $2.9 million for murder, $87,000 for rape and sexual 
assault, $8,000 for robbery, $1,400 for burglary, and $370 for 
larceny.
    Some basic facts demonstrate the impact of the cost to 
society. In 2004 there was an estimated over 23 million violent 
and property crime victims aged 12 or older in the United 
States. This includes an estimated 18.6 million property crimes 
to persons and their households, and an estimated 5.2 million 
violent crimes, which vary from simple assaults to the most 
heinous criminal acts.
    To translate these figures into practice terms for the 
United States, consider the following: one person is murdered 
every 32.5 seconds; one violent crime occurs every 6 seconds; 
one rape or sexual assault occurs every 2.5 minutes; one child 
is reported abused or neglected every 35 seconds; and one 
violent crime is committed every 20 seconds.
    The cost to society is staggering. In 2004 alone, State 
compensation programs paid crime victims and their families 
$426 million. This is nearly double the amount from 7 years 
ago. Half of these payments were for medical expenses. 20 
percent were for lost wages and support, and 10 percent for 
funeral bills. Only 9 percent was allocated for mental health 
services. The direct cost of child abuse and neglect is more 
than $24 billion annually, and when adding indirect costs such 
as mental health, lost productivity, and criminal behavior, the 
figure rises to more than $94 billion a year. Law enforcement 
costs are rising as well. Local police spending represented 30 
percent of the Nation's total justice expenditures as State 
corrections amounted for 23 percent. That's over half of our 
justice expenditures.
    We need to make sure that our criminal justice system 
treats victims fairly and takes into account their rights to 
justice and compensation. Don't forget victims include people 
whose identities have been stolen, and elderly who frequently 
are targeted by sophisticated scabbers on the Internet or in 
the business world.
    The complexities created by various crimes which pervade 
our society demand that our criminal justice system is 
flexible, efficient and focused on the victims' needs. And, of 
course, we need to do all we can to reduce the victimization in 
America. By deterring criminals from committing crimes and by 
preventing criminals from committing crimes.
    I look forward to hearing from the witnesses today, and am 
furthermore interested in any legislative ideas that may be 
forthcoming from these important witnesses who will give 
testimony today.
    I am now pleased to recognize my good friend, the 
distinguished gentleman from Virginia and the Ranking Member of 
the Subcommittee, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I want to express to 
you my appreciation for your holding this hearing on how we can 
protect, compensate and vindicate the interest of victims of 
crime. I'm sure we can all agree that the best way to do this 
is actually prevent crimes from happening in the first place.
    I've been a long proponent of crime prevention programs 
aimed at preventing crimes before the fact, and as a society, 
we are ready to spend billions of dollars that it takes in the 
criminal justice system after the crime has been committed, yet 
when it comes to spending money on evidence-based approaches 
which have been proven to prevent crime in the first place, or 
prisoner development programs which significantly reduce 
recidivism, we find that we either are totally missing in 
action or very stingy when it comes time to spending those 
monies.
    As a result of these failings--our criminal justice system, 
Federal, State and local are all failing us. As long as we 
continue the choice that we're going to play politics rather 
than actually reduce crime, the criminal justice system will 
continue to fail us. What we constantly see around here is 
ratcheting up more and more penalties, without any indication 
of whether or not those penalties are designed to actually 
reduce crime.
    Mr. Chairman, we have a lot of people in jail today through 
these policies, and one thing that we are noticing is that 
about 700,000 of these prisoners will be released, most no 
better prepared than they were to begin with to lead a law-
abiding life.
    I appreciate your holding a hearing just this week on what 
we can do to help these prisoners lead a law-abiding life so 
that we don't have to have more victims asking us for 
compensation because they were victimized. If we spend the 
money and have the programs that are appropriate, many of these 
can return to law-abiding life rather than a criminal life, but 
we have to make sure that we make those investments.
    While I'm all for doing what we can to limit crime 
victimization, we also have to make sure that we do not limit 
the rights of the accused. We already know that we have too 
many people who are convicted for crimes they didn't commit. 
DNA evidence has proven that people, even on death row are 
there for crimes they didn't commit, and we don't want to limit 
whatever rights they have.
    But one of the things that we have seen in the past is when 
we consider victims' rights legislation, if we consider 
statutes rather than constitutional amendments, we don't have 
to get into the debate of whether we're impinging on people's 
constitutional rights. If it's not a constitutional amendment, 
it's not implicated. And there's a lot we can do by statute.
    We can have victims' compensation funds. Virginia has a 
fund where it's almost like worker's compensation. If you're a 
victim of crime, you can get your medical bills paid and some 
lost wages. Maybe we need to have more funds.
    We need to have more money for prosecutors. There is no way 
that you can expect a prosecutor to be even polite if they have 
a stack of files more than they can possibly process in 1 day. 
They need lower caseloads so they can be, instead of being 
abrupt and rude to victims, they can have some time to talk 
with them and go through the process.
    Victim coordinators, people who can go help the victims 
through the criminal justice process, make the phone calls. If 
something has been rescheduled, make the phone calls so that 
the victim doesn't have to come all the way to court to find 
out that the thing has been continued. Victim coordinators, 
those are not that expensive compared to all of the money we 
spend in the criminal justice system and can be extremely 
helpful. And witness protection, to make sure that those 
witnesses who come forward are protected by the police from the 
perpetrators of the crime.
    There's a lot we can do. Preventing the crimes from 
happening in the first place, and making the investments in the 
criminal justice system so that the victims are treated with 
appropriate dignity.
    So I look forward to the testimony by witnesses on how we 
can actually accomplish this, and working with you, Mr. 
Chairman, on how we can improve the criminal justice system for 
those who have been victimized by crime to make sure they're 
not victimized again.
    Thank you.
    Mr. Coble. Thank you, Mr. Scott.
    It's customary for the Subcommittee to restrict opening 
statements to the Chairman and to the Ranking Member, but the 
distinguished gentleman from Ohio, who chairs the Constitution 
Subcommittee, Mr. Chabot, has done tremendous work in this 
area, and he has requested permission to make a brief opening 
statement.
    Mr. Chabot. I think the Chairman very much, and move to 
strike the last word. I look forward to this hearing, and I 
want to particularly thank you for holding this hearing, Mr. 
Chairman. This, as you mentioned, has been an issue. How crime 
victims are treated in the criminal justice system has been 
something that's been a particular concern to us for quite some 
time. I was the sponsor of a victims' rights constitutional 
amendment back in the 106th Congress, the 107th Congress, the 
108th Congress. Unfortunately, despite numerous hearings and 
attempts by Senator Kyl and Senator Feinstein, and myself and 
many others, we just didn't have the votes to pass a 
constitutional amendment. It takes two-thirds in the House, 
two-thirds in the Senate, and we just didn't have the votes to 
do that.
    While it became clear that passage of that amendment wasn't 
possible, at least at that time, Senator Kyl and Senator 
Feinstein worked in the Senate for a bill that would protect 
crime victims' rights. That bill was passed nearly unanimously 
in the Senate, and I was the sponsor of the bill here in the 
House. Ultimately, the Crime Victims Rights Act was included as 
title I of the Justice for All Act, which was signed into law 
by President Bush on October 30 back in '04.
    The Crime Victims Rights Act was the first Federal law to 
truly provide crime victims with dignity and respect through an 
established and enforceable set of rights. This ensures that 
justice is reserved not only for the accused, but also to the 
thousands of persons whose lives have been impacted by crime. 
The Crime Victims Rights Act is a little over a year old now, 
and we're starting to see its impact on the Federal court 
system. For example, in January, the Ninth Circuit Court of 
Appeals ruled that crime victims have an affirmative right to 
speak and not just submit written statements at the sentencing 
phase of a criminal case.
    Also the Justice Department has recently promulgated rules 
pursuant to the act to help ensure that victims' rights are 
effectively addressed by Federal prosecutors. I expect that the 
relevant Subcommittees of the House Judiciary Committee will 
hold oversight hearings with regard to the implementation of 
the Crime Victims Rights Act and its impact on the criminal 
justice system.
    However, the Crime Victims Rights Act is just part of the 
story of how the criminal justice system affects crime victims. 
For instance, just this week I had the opportunity to meet with 
Nancy Ruhe--she's the Executive Director of the National 
Organization of Parents of Murdered Children, and talked with 
her about some of the concerns that they have and some of the 
things to bring up at this hearing. This group happens to be 
based in my district in Cincinnati, Ohio, and they field over 
1,000 phone calls every week to assist the needs of families 
who are experiencing the loss of a loved one.
    In addition, in the greater Cincinnati area, there's a lady 
named Deborah Culberson, who lost her daughter, Carrie, to a 
terrible murder. The perpetrator is behind bars, but they've 
not been able to locate or identify her daughter's remains 
because the murderer refuses to disclose to authorities where 
he hid the body. Part of the problem is a patchwork of State 
laws that call for mandatory DNA testing of the unidentified 
remains in some States, but not in others. Thus, as may have 
been the situation in Carrie's case, if a murderer disposes of 
a body in a State that doesn't have the mandatory DNA testing 
law, the loved ones of that missing person may never be able to 
find out where their loved one actually is.
    Ms. Culberson has been very forceful and determined. She's 
a very courageous and inspiring woman, and she's been pursing 
this national DNA database to help identify missing loved ones, 
and thereby, provide at least some closure to these families, 
and I think her efforts have truly been amazing to watch, and 
she's an inspiration to me and my staff as we've worked with 
her in recent years.
    I look forward to hearing from all the witnesses here today 
about the ways that Congress and the States can better serve 
the needs of crime victims, including Mrs. Culberson and others 
like her. While no one would choose to be a victim of a crime, 
we can choose how we will treat those victims once the crime 
has occurred. And I'll continue to work with those in the crime 
victims community to ensure that crime victims are treated in 
the best manner possible by the criminal justice system.
    Thank you, Mr. Chairman, for allowing me to speak, and 
thank you, for the witnesses being here today.
    Mr. Coble. I thank the gentleman from Ohio.
    Ladies, it's the practice of the Subcommittee to swear in 
all witnesses, so if you all would please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each witness answered 
in the affirmative. You may be seated.
    We are pleased to welcome our panel with us, and Ms. 
Campbell, the distinguished gentleman from California, Mr. 
Lungren, had requested permission to introduce you to the panel 
today, but I see he is belated, so I will do that in his 
absence.
    Ms. Campbell. Maybe it's better if he didn't. [Laughter.]
    Mr. Coble. I didn't hear what you said, Ms. Campbell.
    Mr. Chabot. Maybe it's better if he didn't.
    Mr. Coble. Oh. Well, I am sure he would do a good job. But 
our first witness is the Hon. Collene Thompson Campbell, 
National Chair of Force 100, a victims rights grass roots 
organization. Ms. Campbell was the first woman mayor of the 
city of San Juan Capistrano, and was recently appointed by 
Governor Schwarzenegger to the California POST Commission, that 
is, Peace Officer Standards and Training, which she currently 
chairs. She is also the founder of Memory of Victims 
Everywhere, known as MOVE, an organization devoted to improving 
the criminal justice system by teaching victims how to better 
understand the law. Ms. Campbell has been honored for her fight 
against crime by numerous top officials, including President 
George H.W. Bush.
    Our second witness is Ms. Mary Lou Leary, who is the 
Executive Director of the National Center for Victims of Crime. 
Prior to serving in this capacity, Ms. Leary was Senior Counsel 
to the U.S. Attorney in the United States Attorney's Office for 
the District of Columbia. She's held numerous positions at the 
U.S. Department of Justice, including acting Assistant Attorney 
General for the Office Of Justice Programs, and Deputy 
Associate Attorney General. Ms. Leary has a B.A. degree from 
Syracuse University, and an M.A. from Ohio State University, 
and a J.D. from Northeastern University School of Law.
    And as an aside, Ms. Leary and I share two mutual friends. 
The first one is Mr. M.L. Carr, who is a former basketball star 
for the Boston Celtics, who played his college basketball in my 
district in North Carolina at Guilford College. And your 
counsel, Jennifer, is also a very good friend, Ms. Leary. Good 
to have you with us.
    Our third witness is Dr. Kathryn Coffman, Medical Director 
of Childhelp Children's Center at the St. Joseph's Hospital in 
Phoenix, Arizona. In this capacity, Dr. Coffman evaluated 
children in the Crimes Against Children Unit of the Phoenix 
Police Department, who have been impacted by acts of crime and 
neglect. Previously, she worked at a child abuse clinic at the 
Children's Hospital in New Orleans. Dr. Coffman received an 
undergraduate degree from the Northwestern University and an 
M.D. from the University of Iowa.
    Our final witness today is Ms. Phyllis Turner Lawrence, 
Independent Consultant for the Restorative Justice and Victims 
Services. Ms. Lawrence provides services to victims of crime as 
a restorative justice practitioner, program coordinator and 
trainer, sentencing advocate, and consultant to nonprofits and 
Government agencies. Previously she worked as Special Projects 
Coordinator for the National Organization for Victim 
Assistance, known as NOVA. Currently she's an adjunct faculty 
member at the George Mason University and the Virginia 
Department of Juvenile Justice. Ms. Lawrence received both her 
B.A. and J.D. degrees from the University of California.
    Now, ladies, it is our custom, as we have told you 
previously, to try to comply with the 5-minute rule. When you 
see the amber light on the panel before you, that is your 
warning that you have 1 minute remaining, and the ice on which 
you are skating is becoming thin. Now, we're not going to keel 
haul anybody if they violate the 5-minute rule, but when you 
see the red light appear, if you would wrap that up, we would 
be appreciative. We have examined your written testimony and we 
will reexamine it. But in the interest of time we have other 
meetings as well, if you could comply with the 5-minute rule we 
would be appreciative.
    Ms. Campbell, why don't you start us off? Ms. Campbell, 
pull that mic to you and activate it if you will.

            TESTIMONY OF COLLENE THOMPSON CAMPBELL, 
                   NATIONAL CHAIR, FORCE 100

    Ms. Campbell. Thank you. Mr. Chairman and Committee 
Members, I am frequently asked, ``What are your credentials and 
your degrees? What degrees do you have?''
    Well, I have three degrees, gentlemen. In 1982 I received 
my first degree. Sadly, it was the first degree murder of our 
only son, Scott. I received two additional degrees in 1988. 
Those were the first degree murders of my brother, auto racing 
legend, Mickey Thompson, and his wife. I wish I didn't have 
these degrees, but I do, and our goal is to avoid others from 
obtaining these life-altering degrees.
    It's obvious that it's near impossible, in only a few 
words, to adequately describe a quarter of a century of our 
living hell caused by both the killers and the justice system. 
I think it is extremely important for you to try to comprehend 
the real world of crime and victimization.
    Our family's experience is not uncommon. Millions of 
honest, hard-working Americans are forced to endure the never-
ending devastation caused by crime, which is expanded by our 
justice system that is out of balance.
    In order to be here today before you, I had to fly all 
night last night. I haven't been to bed, and my husband and I 
paid all costs for this trip. That alone should give you a tiny 
indication of the importance we place on your actions. 
Yesterday, in fact, just a few hours ago, we were in a 
California court for the 54th time, hoping to get a trial date 
for the 18-year-old murders of my brother and his wife. But we 
didn't have a right for a speedy trial. Only the accused has 
that right. So yesterday we got another delay, and there's no 
end in sight. That's not only costly to our family, but it's 
very costly to the taxpayers.
    Just last week we sat across the table from the man who 
murdered, and then watched as we searched for our son for 11 
agonizing months. We were there at the parole hearing to simply 
ask the Parole Board to enforce the truth-in-sentencing. It is 
very difficult.
    In our U.S. Constitution, an accused criminal has 23 
rights, and the victim has none. That is unjust and causes our 
system to be heavily weighted in favor of the criminal.
    Mr. Chabot, thank you for what you have done in that area. 
Thank you for your recognition.
    For any family, to deal with murder is excruciating, and to 
allow the American justice system to add additional agony is 
shameful. We ask Congress to do what is right, and please 
support the Office for Victims of Crime.
    I believe my lovely granddaughter, Melissa, summed it up 
best. She said, ``Mom, what would it be like to live in a 
normal family?'' That about ripped my heart out because we've 
tried so hard to make our family normal. I asked her what she 
meant, and she says, ``Well, Mom, every time I ask you and Papa 
if we can take a vacation together, your answer is always the 
same. You always say, ``Well, Princess, we can't promise you 
because we may have to be in court.'' So Melissa said, ``You 
know, Mom, the murderer kills our family, then they control the 
rest of our lives through manipulating the justice system. It's 
just not fair.''
    I think Melissa's words were pretty well said, and really 
summed up what we lived through.
    We're obviously disturbed that the President's budget 
recommends taking the VOCA funds away from the victims, the 
precise people the fund was designed to help. The Victims of 
Crimes Act was introduced by President Reagan. The money is 
generated from fines levied on the convicted criminals. This 
fund is not taxpayers' money. It comes from the correct source, 
from the criminals. Congress must reflect on not taking that 
money. They must not take that money intended for victims, and 
instead, raise the cap from $625 million to a billion dollars. 
The criminals are housed, fed, educated, mentally cared for, 
and given every opportunity to succeed with enormous funds 
spent on their comfort and their welfare. There is something 
greatly wrong with the philosophy that we take care of the 
criminal, but the victim or their children, are ignored.
    It seems the honest law-abiding person may be on the wrong 
side of the bars. I can assure you that we and thousands of 
other victims are the product of others before us doing 
nothing. Hopefully, you will continue to move to take action to 
better protect good, honest-working Americans.
    On behalf of Force 100, representing crime victims from 
every State in the Nation, thank you for allowing me to be 
heard. God bless you, and God bless your work, and this great 
Nation. And I will be happy to answer any and all questions. 
Thank you.
    [The prepared statement of Ms. Campbell follows:]
            Prepared Statement of Collene Thompson Campbell
    Mr. Chairman and Committee Members;
    I'm frequently asked, ``What are your credentials to speak on 
matters of victimology, and what degrees do you possess in this 
regard?'' Well, I have three degrees. In April 1982 I received my first 
degree. Regrettably, it was the first-degree murder of our only son, 
Scott. I received two additional degrees on the 16th day of March 1988. 
It was the first-degree murders of my only sibling, my brother, auto 
racing legend, Mickey Thompson and his wife, Trudy. I have been in the 
criminal justice system from 1982 until this day, that's twenty-four 
straight, exhausting years. So there are ``degrees,'' and then there 
are ``degrees,'' and I will leave it up to you to decide which are the 
most significant in our fight for rights and to help gain standing in 
the courts for the victims. I wish to God I could say I have no 
credentials to address these issues.
    In order to judge moral fiber and fortitude, it is important for 
you, our Nation's decision makers, to recognize and make a strong 
effort to identify with ``why'' we feel so strongly about victims and 
the protection of our citizens. As horrifying as it may seem, for a 
moment, please try to put yourself in my victim's shoes. It is 
difficult in a few words to depict a quarter-of-a-century of a living 
hell furnished first hand to my family by killers and expanded by our 
justice system.
    We are from a good, honest, hard working family. We never thought 
we could become victims of horrible crimes. Our family is among the 
millions of Americans who have been forced to endure the everlasting 
devastation caused by criminals, and in addition, we are further 
required to suffer added enormous stress caused by the inequities 
within our justice system.
    As you can plainly see, I'm certainly not a young woman, and yet, I 
have done what is necessary to be here to speak before you this 
morning. I have not been in a bed for more than thirty hours, and I'm 
sure I ``look it!''
    Just a week ago, my husband, Gary, and I sat across the table from 
the man who murdered our only Son, asking the parole board to please 
enforce ``truth in sentencing'' by keeping the convicted killer in 
prison for the time the court had ordered. Then, yesterday, we again 
spent the day in a Los Angeles County Superior Courtroom. However, this 
court appearance was not about our Son's murder. This time we were in 
court because of the murder of my brother and his wife, Mickey and 
Trudy which seemed to be a continuation of what we have endured on a 
regular basis for nearly twenty-five years straight!
    After leaving the courtroom yesterday, I flew all night to stand 
before you this morning. As with everything we do, my wonderful husband 
of fifty-five-years financed the travel costs. That alone may give you 
a tiny indication of the importance we place on the subject of crime 
and the resulting victims. My motivation is to help avoid others from 
living the life we have been forced to endure by crime and the justice 
system. My reward will be for this Committee On Crime to respond with 
positive action to help victims, like making certain the VOCA fund is 
increased, not eliminated in the President's FY 2007 budget. The 
additional devastation caused to victims of crime, by the system, could 
and should be improved immediately.
    The trial of our Son's murder case stretched out more than eight 
years. The murder case of my Brother and his Wife, has now expanded to 
eighteen years, and obviously, important witnesses are dying. That, 
Committee Members, is a total of twenty-four straight years of our 
family attempting to endure the impact of murder, coupled with a less 
than balanced justice system. Plus, it must also be noted that these 
delays are a huge liability to the taxpayer. Only the accused has a 
right to a speedy trial, not the victim, nor the taxpayer. Victims do 
not have rights in the Criminal Justice System.
    The justice system continues to accommodate the killers, thereby 
escalating the emotional pain to the families of horrible crimes. Evil 
offenders murder our loved ones, then, all too often our system permits 
them to generate absurd, untrue and hurtful accusations against the 
victims, their families and law enforcement officers. The criminal 
defendant frequently is allowed to generate painful unfairness, 
prolonged trial delays and knowingly deceive the Court.
    In our U.S. Constitution, an accused criminal has twenty-three 
rights and the victim has not one single right. It is crucial that we 
all work to improve the unfairness that is heavily weighted in favor of 
the criminal.
    Along with thousands of other good hard-working Americans who have 
become victims of evil predators, our only son, Scott, is dead because 
of a weak and forgiving criminal justice system. His killers both would 
have been ``Three-Strikers'' under today's California law, and should 
have been in prison. If they had been incarcerated our Son would be 
alive today. There are many thousands just like us who have lost their 
loved ones because a criminal was given that ``one more chance,'' which 
is a huge and unforgivable ``price'' for a Mom and Dad.
    We may be one of the hardest hit crime victim's families in the 
Nation, but we are only one family out of hundreds of thousands who are 
forced to endure huge inequities within the system, both State and 
Federal.
    Our son, Scott, became missing and we desperately searched for him 
for eleven agonizing months before we learned the horrible truth. Scott 
was kidnapped, assaulted, strangled and then thrown from an airplane 
into the Pacific Ocean by two repeat felony criminals, his body was 
never found.
    My Brother, my only sibling, auto racing legend Mickey Thompson and 
his wife, Trudy, were shot to death as they were simply leaving their 
home on their way to work in the morning. It has now been eighteen-
years since their murders. We have traveled to, and been in the 
courtroom fifty-four times and still do not have a trial date, due to 
defense motions. There is no end in sight. For any family to deal with 
murder is excruciating. However, to allow the American justice system 
to add additional agony is both intolerable and shameful. Possibly if 
victims had an organization such as the ACLU or the Trial Attorneys' 
Associations our situation might improve. We have very few factions 
representing victims and that is why it is so very important that you 
step forward to help protect the honest, law abiding citizen who just 
happens be become a victim of crime. Why are so many interested in 
helping the perpetrators of crime and not the victims of the criminal's 
evil actions? We ask the House to do what is right and support the 
Office For Victims of Crime and its Director, John Gillis, who himself 
has lived through the devastation of a gang member murdering his only 
daughter, all because he was a Police Officer. The gang believed to 
``murder the daughter of a policeman'' would escalate their gang 
status, along with the actual gang killer.
    We continue to be deeply saddened, and rightly so, by the 9/11 
terrorists' attacks. During those four cowardly assaults, there were 
2,752 innocent humans killed by terrorists on that heartbreaking day of 
September 11, 2001. And as of today, unfortunately, in action, we have 
also lost 1,776 great and courageous Americans in Iraq and Afghanistan 
in the war to protect our Nation and bring peace to the world. However, 
it is important to realize that during that same period of time, as our 
Nation's attention is turned to war casualties and the 9/11 fatalities, 
we have lost more than 70,000 American's right here in our own United 
States, to MURDER.  That is more than 15 times the number of people 
that were killed on both 9/11 AND in the war in Iraq and Afghanistan. 
Fifteen times greater and I am only talking about murder . . . and not 
including all the other vicious and violent crimes like rape, 
molestation and robbery. That certainly indicates, we must also focus 
on what is happening here, in our Country. We are obligated to fight 
and protect the citizens of our Nation wherever necessary and that 
includes here on our own American soil.  It is time to better serve 
Americans in our own homeland by being tougher on crime and criminals 
and attempting to help the victims.
    It is inconceivable to realize that every nine weeks there are as 
many people murdered right here in America as were killed in all four 
of the horrible 9/11 terrorists' attacks. The safety of its people is 
our government's most important and critical role.
    My small family consists of proud Americans. Since the American 
Revolution, our family has fought in every major war for equality and 
the freedom of all Americans in this great Nation. We have worked hard, 
contributed greatly and never asked for a handout from anyone. My 
Father, Marion Thompson, was a police officer, my Mother, Geneva 
Thompson, was a committed and respected volunteer for good and my 
Brother, Mickey Thompson, contributed greatly to the youth and to the 
development of automobile safety. My family believed the U.S. 
Constitution was written to protect, balance and establish justice, 
yes, establish justice . . . And, that is true, it does establish 
justice . . . unless, you have the misfortune of becoming a victim of 
violent crime.
    Like many other crime victims, there has been tremendous pain and 
grief to our family, which was expanded due to the fact that the moment 
we became victims of crime, our rights were ignored in favor of the 
killer. That means, a murderer or a rapist has rights not afforded to 
victims, all because we, the victim,  are not even mentioned in our 
U.S. Constitution.
    My husband and I were not permitted to be in the courtroom during 
three trials of the men who murdered our Son. There was no reason to 
exclude us, other than the defense could get by with it. We were forced 
to sit in the hall,  like a dog with fleas. Yet, the killers, along 
with all their family and supporters, were inside the courtroom 
portraying a family unit.
    We were not allowed to be heard, yet, the killer's family was able 
to testify in front of the jury, proclaiming the goodness of the 
defendant and the victim as a lesser person. Our Son's killers were 
convicted of first-degree murder; we believed we were finally through 
the process, but we were not informed of the following court action.
    We were not notified of a hearing before the District Court of 
Appeal. Therefore, no family member was present to represent our 
murdered Son, however, in full force, forty members of one of the 
killer's contingency, were in the courtroom, as they had been informed 
and notified. The conviction of our Son's murderer was overturned by 
that Appellate Court. The ``capital case'' killer was released on bail 
in violation of the California State Constitution and without 
consideration for our family's safety. We learned through headlines in 
the media that there was to be another trial and our Son's killer had 
been released back into society where he continued his deadly criminal 
lifestyle and others were hurt.
    We contacted the Attorney General's Prosecutor handling our case 
and asked why she hadn't bothered calling or notifying us regarding the 
appeal, the pending court proceedings and the killer's release. Her 
answer was demeaning, but typical, she said, ``We never notify the 
victims, they simply don't understand.'' However, we knew the true 
reason, unlike the killer's defense, she was not required to notify us, 
because we were only the Mom and Dad of the murdered victim, his next 
of kin. We did not have the right to be notified!
    Our family would never ask for or want restitution, our Son's life 
does not have a dollar value. However, among many other significant 
costs, we had to ``cough-up'' $2,000.00 to get his car out of storage, 
after it had been impounded by the police for evidence. The trials took 
eight years to complete, and during that time our life was controlled 
by the defense. There was no consideration for our panic-stricken 
personal life, our safety, our plans, family holidays, or finances. 
Today, the inmates have free access to the internet and often they 
utilize their contacts to build web-sites to defame their victim, the 
victim's family and law enforcement.
    I believe my lovely Granddaughter, Melissa, summed it up best. She 
said, ``Mom (that's what she calls me), what would it be like to live 
in a ``normal family?'' Those words about ripped my heart out, as we 
have tried very hard to maintain a ``normal'' and loving family. When I 
asked her what she meant, she simply said, ``Every time I ask you and 
Papa if we can take a vacation together, your answer is always the 
same.'' ``Well Sweetie, we can't promise you, as we may have to be in 
court.'' Melissa then responded with, ``You know, Mom, the murderer 
kills our family, then they control the rest of our lives through 
manipulating the justice system, it's not fair.'' I think Melissa's 
words pretty well sum up the feelings of most victims of violent crime. 
The entire family's life is harmfully altered, not only by the 
criminal's evil act, but also by a justice system that continues to put 
the criminal and their desires first.
    You rarely hear from people like us, because victims are too 
devastated to speak on the subject. We have no financial help or 
attorneys representing us. Unlike the defense attorney's associations 
we are financially unable to contribute to legislators and policy 
makers. The victims are forced to fend for themselves. And unlike the 
inmates, victims don't have medical care, meals, exercise, 
psychologists, attorneys and legal advisers. Victims are always the 
only ones at the table who are not on someone's payroll. Victims pay 
their own costs, even to be heard, like today.
    Congressmen, what we victims fail to understand, is how in this 
great Nation, we have allowed the violent criminals and their defense 
attorneys to have many rights. And, there are no rights for the honest, 
law-abiding good American citizen, who through no fault of their own, 
have become a victim of violent crime. I'm certain this is not what the 
Founders of this Great Nation and the authors of our Constitution 
intended and it needs to be corrected immediately.
    Many were very disturbed when we learned that the President's 
budget recommends taking the VOCA funds (Victims of Crime Act) away 
from the victims, the injured party, the intended beneficiaries and the 
precise people the fund was designed to help! The Victim of Crime Act 
is a legacy, introduced by President Ronald Reagan and passed in 1984 
and funded in 1986. The money is generated from fines levied on 
criminal perpetrators. In other words, this fund is NOT taxpayers' 
money, it comes from the criminal, the very person who caused there to 
be a victim. Is any legislator paying attention, ``watching the store'' 
or caring about victims? These funds are generated from the criminal, 
the person responsible for the crime, it is the correct source, and 
NOW, in the budget, apparently some ``uninformed staffer'' is trying to 
eliminate those victims' funds, which is the only source for medical, 
burial, hospital and necessary help. Please correct this inequity 
immediately. Congress must reject the taking of this money and instead, 
raise the cap from 625 million dollars to a billion dollars. The 
criminals are housed, fed, educated, medically cared for and given 
every opportunity to succeed with enormous funds spent on their comfort 
and welfare. Are you truly going to deny our victims help, even though 
the funding is supplied by the perpetrators. There is something greatly 
wrong with this viewpoint and philosophy.
    It seems the honest law-abiding person may be on the wrong side of 
the bars? The criminals have no worries, there needs are met. Last 
month I listened to the accused killer of my Brother and Sister-in-law 
complain that he was forced to wait four hours to see a doctor. The 
last time my husband needed to see a doctor it took two weeks to get an 
appointment! I also watch as
    I can assure you, that we and thousands of other victims are the 
product of others before us doing nothing. Hopefully, you are unwilling 
to continue that standard and will move to action to better protect the 
honest, hard-working American.
    It is appalling that a vicious murderer has rights and the law-
abiding American citizen, who becomes a victim, has no rights. 
Unfortunately, the justice system has been altered, until it is now 
broken. Victims ask that you take a strong an honest look at the 
inequities of the so-called ``justice'' system.
    On behalf of FORCE 100, representing crime victims from every state 
in our nation, thank you for allowing me to be heard.
    God Bless your work and God Bless our great Nation.

    Mr. Coble. Thank you, Ms. Campbell.
    Ms. Leary?

   TESTIMONY OF MARY LOU LEARY, EXECUTIVE DIRECTOR, NATIONAL 
                  CENTER FOR VICTIMS OF CRIME

    Ms. Leary. Good morning, Chairman Coble, Ranking Member 
Scott, and Members of the Subcommittee. I am Mary Lou Leary, 
Executive Director of the National Center for Victims of Crime. 
We're a national, private nonprofit, and we recently celebrated 
our 20th year of working to secure the rights and protect the 
interests of victims of crime.
    So I appreciate the chance to speak before you this morning 
on a topic of great importance to victims of crime, and that 
is, collecting the restitution that is owed to victims.
    You know, this year is the 10th anniversary of the Federal 
Mandatory Victims Restitution Act of 1996. So it seems like a 
particularly appropriate time to reflect on our performance in 
providing restitution to crime victims. The National Center has 
spent many years examining this issue of restitution and 
working with advocates and policymakers to promote best 
practices in this arena.
    Unfortunately, I have to say that when you look closely at 
the situation, our performance is pretty poor, especially at 
the Federal level. Most recent public figures show uncollected 
criminal debt at the Federal level to be over $25 billion. 70 
percent of that is restitution that is owed to individuals and 
others who are harmed by defendants. Last year the GAO released 
a study that examined five high-dollar white-collar financial 
fraud cases. GAO found that only 7 percent of the restitution 
ordered in those cases was ever collected, and that was up to 8 
years after sentencing. We simply have to do a better job.
    And I would note also, that of the uncollected criminal 
debt, about two-thirds of that actually is white-collar fraud 
and corporate crime, so we're not talking about the kind of 
run-of-the-mill, ne'er-do-well with no assets here.
    The payment of restitution really matters. It matters to 
victims of crime. Some of the most heartbreaking cases that 
involve restitution, and especially at the Federal level, 
involve elderly victims who have lost their life savings to 
fraud. This crime robs them not only of their money but of 
their sense of security, their peace of mind, and for many of 
them, even their ability to remain independent and live in 
their own homes. The depression and the stress that comes in 
the aftermath of crime and of losing everything can lead to a 
steep decline in physical health as well.
    For these victims, restitution may preserve their future. 
Even for victims who have not lost their life savings, 
restitution for the harm they sustained is important as they 
rebuild their lives.
    Restitution is important for offenders as well. Courts have 
recognized that restitution is significant because it forces 
the defendant to confront, in concrete terms, confront the harm 
he has caused. In fact, there is a study that shows the 
connection between restitution and recidivism, and it showed 
that individuals who paid a higher percentage of their ordered 
restitution were actually less likely to recidivate. It's 
pretty amazing.
    Significantly, paying criminal fines did not have the same 
impact. Enforcing these orders of restitution is important to 
the criminal justice system as well, so the defendants will not 
walk away feeling like, ``I'm above the law. If I don't pay, 
nothing will happen.'' And it's a message to victims and to the 
public that when the court issues an order, the court will 
enforce an order.
    So what can we do to do better? First of all, in 
appropriate cases, courts must have the ability to freeze 
assets prior to conviction, especially with financial fraud. 
It's amazing how much money these defendants have, and 
especially in fraud and corporate crimes at the time of 
indictment, and then when it comes around, at time of 
conviction, when it comes around time for sentencing, for 
restitution, those assets have been secreted, dissipated, 
transferred to family members and so on.
    Second, we have to provide more resources to fund 
collection efforts. And, finally, we have to create a system to 
provide immediate restitution to the neediest victims of all. 
Some States actually have such a program, like Vermont. A needy 
victim can get immediate restitution up to $10,000, and then 
the money is paid back to that fund by the offender. That's a 
system that works.
    Thank you for your time, and the National Center would be 
very happy to work with this Committee to address this issue of 
restitution, and to answer any questions, of course, that you 
have.
    [The prepared statement of Ms. Leary follows:]
                  Prepared Statement of Mary Lou Leary
    Good morning, Chairman Coble, ranking member Scott, and members of 
the Subcommittee. My name is Mary Lou Leary, and I am executive 
director of the National Center for Victims of Crime. The National 
Center is a nonprofit, resource and advocacy organization that recently 
celebrated our 20th year of championing the rights and interests of 
victims of crime. I appreciate the opportunity to appear before you 
this morning to address a topic of great importance: collecting the 
restitution owed to victims of crime.
    This year marks the 10th anniversary of the federal Mandatory 
Victims Restitution Act of 1996.\1\ In passing that Act, Congress 
intended to ``ensure that the loss to crime victims is recognized, and 
that they receive the restitution that they are due'' as well as ``to 
ensure that the offender realizes the damage caused by the offense and 
pays the debt owed to the victim as well as to society.'' \2\ This 10th 
anniversary is an appropriate time to reflect on our performance in 
providing restitution to crime victims. The National Center has spent 
many years examining the issue of restitution, working with advocates 
and policymakers to promote best practices in implementing this key 
victims'right.\3\
---------------------------------------------------------------------------
    \1\ Pub. L. 104-132, title II, subtitle A (Sec. 201 et seq.), 110 
Stat. 1227 (1996).
    \2\ S. Rpt. No. 104-179, at 24 (1995).
    \3\ See, for example, National Center for Victims of Crime, 
``Restitution: Making it Work,'' OVC Legal Series Bulletin #5 (November 
2002); National Center for Victims of Crime ``Ordering Restitution to 
the Crime Victim,'' OVC Legal Series Bulletin # 6 (November 2002); 
National Victim Center, ``1996 Victims' Rights Sourcebook: A 
Compilation and Comparison of Victims' Rights Laws,'' (Arlington, VA: 
National Victim Center, 1997).
---------------------------------------------------------------------------
    Unfortunately, an honest examination shows we're doing a poor job 
in implementing this right, especially at the federal level. The most 
recent public figures show uncollected criminal debt at the federal 
level to be over $25 billion-seventy percent of which is restitution 
owed to individuals and others harmed by defendants.\4\ A study 
released last year by the GAO examined five high-dollar white collar 
financial fraud cases and found that only about seven percent of the 
restitution ordered in those cases was collected-up to eight years 
after the offender's sentencing.\5\ We simply must do better.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, ``Criminal Debt: Actions Still 
Needed to Address Deficiencies in Justice's Collection Processes,'' 
GAO-04-338 (Washington, DC: March 2004), 2. This figure excludes 
restitution owed to federal agencies.
    \5\ U.S. General Accounting Office, ``Criminal Debt: Court-Ordered 
Restitution Amounts Far Exceed Likely Collections for the Crime Victims 
in Selected Financial Fraud Cases,'' GAO-05-08 (Washington, DC: January 
2005), 3.
---------------------------------------------------------------------------
           why enforcement of restitution orders is important
    The payment of restitution is of great importance to victims of 
crime. Some of the most heartbreaking restitution cases, particularly 
prevalent at the federal level, involve elderly victims who have lost 
their life savings to fraud. The crime robs them not only of their 
money, but their sense of security and even their ability to remain 
independent and live in their own home. The ensuing depression and 
stress lead to a steep decline in their physical health. For these 
victims, restitution may preserve their future.
    Even for victims who have not lost their life savings, restitution 
for the harm they sustained is important as they rebuild their lives. 
Repayment of their financial losses, including property losses, can be 
crucial in helping to repair the damages from the offense. It is also 
important as a tangible demonstration that the state, and the offender, 
recognize that the harm was suffered by the victim and that amends will 
be made.
    Restitution is important for offenders as well. Courts have 
recognized that restitution is significant and rehabilitative because 
it ``forces the defendant to confront, in concrete terms, the harm his 
or her actions have caused.'' \6\ In fact, a study that examined the 
connection between restitution and recidivism found that individuals 
who paid a higher percentage of their ordered restitution were less 
likely to commit a new crime.\7\ Significantly, the payment of criminal 
fines did not have this effect, indicating that it is the act of 
reparation to the victim that is important.\8\
---------------------------------------------------------------------------
    \6\ People v. Moser, 50 Cal. App. 4th 130, 135 (1996).
    \7\ Cynthia Kempinen, ``Payment of Restitution and Recidivism,'' 
Research Bulletin 2, No. 2 (State College, PA: Pennsylvania Commission 
on Sentencing, October 2002).
    \8\ Id.
---------------------------------------------------------------------------
    Enforcing orders of restitution is also important to our criminal 
justice system. When a criminal court has issued an order, and that 
order remains unenforced, respect for our justice system suffers. 
Victims lose faith, criminal justice system employees become cynical, 
and offenders learn that they will not be held accountable when they 
conduct themselves as if they are ``above the law.''
                            what can we do?
    First, in appropriate cases, courts must have the ability to freeze 
assets prior to conviction. This is particularly necessary in cases 
involving financial fraud. The recent GAO report I spoke of earlier 
noted that many fraud defendants have significant financial resources 
at the start of the criminal case, but by the time of sentencing have 
dissipated, transferred, or hidden much of their wealth.\9\ We must 
give prosecutors the tools to preserve assets in certain cases.
---------------------------------------------------------------------------
    \9\ Supra, note 2, page 3.
---------------------------------------------------------------------------
    Some states already allow this. In Pennsylvania, prosecutors can 
seek a temporary restraining order in cases in which there is a 
substantial probability that the state will prevail, that restitution 
of more than $10,000 will be ordered, and that failure to enter the 
order will result in the assets being unavailable for payment of the 
anticipated restitution.\10\ In California, prosecutors may seek an 
order to prevent offenders from dissipating or secreting specified 
assets or property at the time of the filing of a complaint or 
indictment when a case involves a pattern of fraud and the taking of 
more than $100,000.\11\ Federal prosecutors should have a similar 
ability to preserve assets for restitution.
---------------------------------------------------------------------------
    \10\ 42 PA Cons. Stat. Sec. 9728 (2005).
    \11\ Cal. Penal Code Sec. 186.11 (2006).
---------------------------------------------------------------------------
    Second, we must provide more resources to collection efforts. 
Financial Litigation Units, or FLUs, established to pursue collection 
of federal debt in U.S. Attorneys' offices, tell us they are 
understaffed.\12\ No government program can be fully effective without 
adequate resources. We must make FLUs a funding priority. Many FLUs 
also turn to a program that provides additional, highly experienced 
asset investigators for specific cases, called the Financial Litigation 
Investigator Program. This program should be expanded, to make this 
tool more widely available.
---------------------------------------------------------------------------
    \12\ See also U.S. General Accounting Office, ``Criminal Debt: 
Court-Ordered Restitution Amounts,'' 18.
---------------------------------------------------------------------------
    Finally, we must create a system to provide immediate restitution 
to the neediest victims. Some victims, particularly vulnerable or frail 
seniors, cannot wait the years it may take to collect restitution from 
an offender. We must create a program that can provide restitution to 
them immediately, while the program is reimbursed by the defendant over 
time.
    Such a program has been created in Vermont.\13\ Victims of crime 
who are awarded restitution can immediately take their order to the 
state's Restitution Fund, where up to $10,000 of the order is paid 
immediately. The Fund then collects from the offender. The Fund has 
been operational since July of 2004, and in its first year has paid 
1,400 claims. Importantly, with a trained staff including collection 
analysts and an attorney, no restitution orders have been determined to 
be uncollectible.
---------------------------------------------------------------------------
    \13\ 2003 Vt. Acts & Resolves No. 57.
---------------------------------------------------------------------------
    These three steps would significantly improve the provision of 
restitution. The result would be a more complete recovery for crime 
victims, a restorative sentence for offenders, and a system that comes 
closer to the ideal of ``doing justice.''
    Thank you for your time. I'd be happy to answer any questions.

    Mr. Coble. Thank you, Ms. Leary.
    Dr. Coffman?

    TESTIMONY OF KATHRYN COFFMAN, M.D., MEDICAL DIRECTOR OF 
CHILDHELP CHILDREN'S CENTER, ST. JOSEPH'S HOSPITAL AND MEDICAL 
                             CENTER

    Dr. Coffman. Thank you, Mr. Chairman, and Members of the 
Committee.
    I've been a pediatrician for nearly 25 years, but for the 
past 15 years I've been working in the field of child 
maltreatment, and my primary role has been medical evaluation 
of children who are referred for abuse or neglect. I have done 
this in different regions of the country and in different 
practice settings, but at the current time I'm very fortunate 
to be working in a multidisciplinary center called the 
Childhelp Children's Center of Arizona.
    This is a child advocacy center that co-houses 
professionals from different agencies who work in the field of 
child maltreatment, including law enforcement, social services, 
mental health and medical personnel.
    The multidisciplinary team concept allows professionals 
from different disciplines, with different agendas and 
different missions, and often different philosophic approaches, 
to find common ground to best serve the children and families 
in our community.
    What I would like to do in the time allotted to me is 
address some of the issues in my statement that are covered 
more fully in the written statement.
    The first of these, and the foundation of really what I'd 
like to talk about is the necessity of intensive early 
intervention in the lives of children who are living in 
situations where they are experiencing abuse or neglect. There 
is a lot of information available on the effects of 
environment, on the developing infant. And I would refer you to 
work by Dr. Bruce Perry, a child psychiatrist in Houston. I did 
list contact information in the website in my citation. But 
he's done a lot of work on neurobiology and neurodevelopment in 
children who are exposed to trauma.
    One of the things that's very clear is that infancy and 
early childhood is the time of life when we are most 
susceptible to environmental or traumatic influences. And 
children who are raised in neglectful or traumatic 
environments, experience profound, negative impact on their 
development, and this is something that's going to eventually 
touch us all. We need to acknowledge, I think, the importance 
of early childhood and early childhood development if we're 
going to hope to make a meaningful impact in child abuse and in 
the outcome of these children.
    The second issue follows from the first, and that involves 
the way our system tends to react to children who are victims 
of abuse and neglect, and that is, we have a reactive system 
rather than a proactive system. We wait until something's 
happened and then we try and do something about it. While this 
is understandable to some extent, because it's hard to do 
something when something has not happened yet, there are 
certain risk factors for abuse that are well recognized, for 
example, substance abuse; for example, domestic violence. We 
know children who live in these homes are very, very high risk 
for abuse and neglect, and yet, we leave children in these 
homes usually until such time as a serious injury occurs, and 
then the response is often too little and too late.
    I would encourage the Committee to support whatever action 
needs to be done to put prevention services in place for these 
children before such time as they have to experience severe 
abuse or neglect.
    Another issue is our legal system. Our child abuse cases 
don't usually make it to the criminal justice system unless a 
child is killed or severely injured, but they do make it to the 
civil justice system or the family courts. And what we see in 
family court is an emphasis on family reunification. Above all, 
that seems to be the overriding goal of the civil justice 
system.
    The problem with this is that we seem to lose sight of the 
fact that child abuse is a crime, and children who have been 
abused are victims of a crime, and people who abuse their 
children are criminals. We don't treat these children as 
victims, and we often tend to return them to the very people 
who victimize them.
    A parallel thing is family preservation in the social 
service system. Family preservation seems to be the overriding 
goal of our social service agencies across the country, and 
although it's a nice idea to keep children with their families, 
and all children should be raised in healthy, nurturing, 
supportive families, the problem is some of these families are 
not families that should be maintained. When family 
preservation becomes the primary goal, child safety and child 
well-being becomes a secondary goal and we lose sight again of 
the importance of that.
    Bottom line, I think, is that we need to move from a 
family-centered to a child-centered welfare system. We need to 
make children's rights and children's needs our primary focus 
when we make determinations on what's going to happen with 
them.
    I would like to close on a message of hope. Again, I have 
the great good fortune to work in a multidisciplinary center, 
and we are able to provide in that center comprehensive 
services to children and families who are in the situations. In 
so doing, I think we're able to greatly minimize the likelihood 
that this child is going to be revictimized, greatly minimize 
the chance that this child's siblings are going to be 
victimized, and most importantly, greatly minimize the chance 
that this child will grow up to be an abusive parent 
themselves.
    These multidisciplinary centers are not widely available 
throughout the country. They should be. All children should 
have access to them. And given that funding is one of the 
primary reasons why they're not available, I would echo the 
comments of my previous two speakers, we need to free up money 
from the Crime Victims Fund in order to put in place these 
prevention services on behalf of our children and behalf of all 
of us.
    Thank you.
    [The prepared statement of Dr. Coffman follows:]
                 Prepared Statement of Kathryn Coffman
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Dr. Coffman.
    Ms. Lawrence?

 TESTIMONY OF PHYLLIS TURNER LAWRENCE, INDEPENDENT CONSULTANT, 
            RESTORATIVE JUSTICE AND VICTIMS SERVICES

    Ms. Lawrence. First I would like to thank you very much, 
Chairman Coble and Ranking Member Scott, and all the other 
Members of the Committee and the staffers and the audience, for 
taking the time out of your busy schedule to think about these 
very critical issues.
    Mr. Coble. Ms. Lawrence, if you would suspend just a 
moment. I failed to mention we have been joined by the 
distinguished gentleman from Arizona, Mr. Flake, and the 
distinguished gentleman from Texas, Mr. Gohmert. Good to have 
you all with us.
    And I will not penalize you for that extra time, Ms. 
Lawrence.
    Ms. Lawrence. Thank you. As my written testimony describes, 
I'm the survivor of a violent rape in 1989 by a man who broke 
into my home. I was a practicing attorney at the time. In fact, 
my home was my office, and he failed to notice my attorney-at-
law card on the door, which was probably one of his major 
mistakes.
    He would up being convicted, and he's doing time in 
California. Now, I'll be talking about that in a minute. But 
after I quit practicing law, I came to D.C., and I received 
extensive training in victim assistance, including my 3 years 
at the National Organization for Victim Assistance in the mid 
'90's. That experience turned me into a victim advocate. I've 
also had extensive training and experience in restorative 
justice, and I'll talk a little bit more about that paradigm.
    But there are three relevant points in terms of how victims 
are treated in the criminal justice system that I would like to 
mention about my own case. First, at the trial, the prosecutor 
told me to be more emotional on the stand. It was obvious that 
he wanted the jury to see someone angry and upset, even though, 
fortunately, I had had great support and was already beginning 
to heal.
    Secondly, admittedly, it was very challenging to see this 
man that I knew had raped me, go ahead and plead not guilty and 
deny the violence he perpetrated and insist on a trial. 
However, I considered it my victory over the rapist and his 
awful acts, that I was not swayed from my commitment to the 
United States Constitution and its proper protections against 
abuses of Government power. The terrible sense of violation I 
experienced could easily have led me to substitute emotion for 
reason and principle, forgetting our basic premise that one is 
innocent until proven guilty by a court of law, and 
potentially, any one of us could be wrongfully accused, as Mr. 
Scott was referring to, we know that that happens, so we know 
we need to maintain every single protection in the 
Constitution. However, as a victim, I'm not at risk for such 
threats of abuse of governmental power, such to the extent that 
I would need constitutional protection.
    Thirdly, at the sentencing, when I gave my victim impact 
statement, it was extremely frustrating that there was no way 
to make sure that this man, who had so violated me, would even 
listen to me, pay attention to me as I described the pain he 
had inflicted. But I was very fortunate in my recovery going 
very well.
    Over my now 11 years of involvement with victims, I have 
met many who have never received support that helps them move 
toward recovery, and therefore, their grief, their anger and 
their fear continue to dominate their lives. This is 
tremendously sad.
    Also in my 3 years at NOVA on our victims hotline, I spoke 
with probably at least 3,000 victims, and I can tell you that, 
unfortunately, more than half of them were complaining about 
the very people they expected to help them, the prosecutors, 
the police, people in the correctional system and sometimes the 
judges.
    So it is critical that we continue to educate the people in 
the allied professions, the people who come into contact with 
victims, that we continue to educate and raise up qualified 
victim services providers, and that we make sure that the laws 
that already are there to protect victims' rights are enforced 
by those who are responsible for implementing them. So I too 
join everyone on the panel in asking that Congress leave alone 
the funding mechanism for VOCA, and in fact, increase funding 
for victims and victim services.
    I would like to turn now to talking about something that 
has become my major passion in life, and that is the paradigm 
of restorative justice. Understandably, many times people feel, 
let's just lock him up, take him away, get rid of him, I don't 
want to see him again. But we do believe in fundamental 
fairness in this country and we do realize that people are 
going to get out, and many people aren't going to be locked up 
in the first place. So we need to address what are kinds of 
processes that are really going to take into account the needs 
of the victims and the community, and at the same time actually 
hold offenders accountable in a real way.
    For many, accountability has come to mean punishment. We 
lock them up. They're being accountable. They're paying their 
debt to society. However, to the victim, they may appreciate 
that, as I do, of feeling safe, but I don't feel that the man 
doing what will be at least 26 years in prison without ever, 
ever having to face what he did to me, to understand, by having 
to go through sex offender treatment services, that he will 
come out in 26 years minimally--if he does good time--of his 
48-year sentence, without ever getting it, without ever 
understanding, without ever taking any real responsibility for 
his actions.
    He left behind a wife and four children. One of the reasons 
he was able to be captured was because he had abused his wife. 
She and her children were left behind, and they are not 
protected under victims of compensation acts, and I believe 
that the family members of offenders, and offenders who are 
victimized, should also be protected.
    So I'd like you to really consider the meaning out of the 
dictionary of the word ``accountability.'' It's the trait of 
being answerable to someone for something, or being responsible 
for one's conduct. From that perspective, this is what is owed 
by the offender to the victim and the community, rather than a 
debt to the amorphous State that none of us can actually really 
experience.
    Restorative justice asks three questions: Who has been 
hurt? What are their needs? And whose obligations are they? So 
we really look at the larger picture and really see what the 
victim's needs are, and how can the system address them, the 
public address them, and what is the offender's responsibility, 
and how can we help that offender become competent enough that 
they can make repair in realistic and affirmative ways.
    I would also like to add to Ms. Leary's comments about 
restitution, that we found that when people participate in a 
restorative process, which is either directly meeting with 
the--a meeting facilitated by trained facilitators between a 
voluntary victim and a voluntary offender, or shuttle 
diplomacy, that somebody's facilitating conversations with them 
independently and bringing the information back to the table, 
that when the agreements are made for reparation, the rate of 
compliance is very, very high. I ran a program with juveniles 
and we had almost 100 percent rate of compliance.
    Thank you very much. I hope you will consider looking at 
the testimony, and consider the concept of restorative justice, 
and consider piloting projects on the Federal level so we can 
really have good ways of testing implementation.
    Thank you.
    [The prepared statement of Ms. Lawrence follows:]
             Prepared Statement of Phyllis Turner Lawrence
    Mr. Chairman and Committee Members:
    First I would like to offer my sincerest appreciation to 
Chairperson Coble and members of this subcommittee for taking the time 
to examine the needs of victims of crime in order to consider 
appropriate ``next steps'' by Congress. Thank you very much.
    In 1989, I was living alone and working out of my home in 
California as an attorney in private practice, some of which consisted 
of criminal defense. In the 12 years that I had been practicing law in 
California, and during my three years of law school at the University 
of California, there had been little to no emphasis on thinking about 
the victims of crime. However, I was politically active in women's 
rights and had represented many women who were physically abused, as 
well as the local shelter in a case over client confidentiality.
    My own world changed when a stranger broke into my home and raped 
me. Now I-- who had felt ``it will never happen to me,'' became a 
victim myself. Besides the psychological and physical trauma of the 
rape itself, there were the ongoing emotional challenges of having to 
recall, over and over again, every minute detail of the horrific 
experience in order to make sure that the rapist, who fortunately was 
caught, would be convicted. These were pre-DNA days, and other than 
blood typing matches from both his and my blood from fighting each 
other, there was little forensic evidence, in fact, little evidence 
other than my word. Fortunately, there was a conviction, and at 
sentencing, I was able to give my victim impact statement in court, but 
from behind the bench, and without being able to directly confront the 
man who had caused me the worst harm of my life.
    I was also very fortunate to have a wonderfully empathetic female 
police officer and then a very supportive female victim/witness 
coordinator in the district attorney's office. However, the male 
prosecutor chose to direct me to stay in his office when others were 
testifying, claiming he did not want the jury to be distracted by 
watching my every reaction. This was odd, as usually that's exactly 
what prosecutors want, but later--when I realized that he also told me 
to show more emotional when testifying--I understood that he wanted an 
angry, upset victim, not the calm person that I had become through my 
own healing process. I also was later told by someone very familiar 
with this prosecutor that she believed that he did not want a victim 
who was an attorney in the courtroom evaluating his every move.
    I make these points to underscore my later experience when working 
for the National Organization for Victim Assistance (NOVA) here in 
Washington in the mid-90s. I realized that I was so blessed to have had 
good support from friends, my SGI-USA Buddhist community and a good 
therapist, that I was able to begin immediately on a healing journey. 
However, I have seen through my now 11 years of involvement with 
victims, that many victims who do not have sufficient professional, 
financial, emotional, or spiritual support, continue to suffer with 
their anger, confusion, and fear dominating their lives.
    I was trained in crisis response and victim advocacy by the NOVA 
experts, and besides my regular research and writing, I answered NOVA's 
national victim hotline. Over my three years, I estimate that I 
responded to calls from perhaps 3000 victims. To my surprise, and 
perhaps to yours, more than half those victims were hurt or angry about 
the treatment, not by the offender, but by the professionals they 
expected to ``represent'' them, the police and the prosecutors, and 
sometimes the judges. We had to explain over and over that one of our 
goals was to better train all those professionals to be more sensitive 
to victims and to enforce the rights they already had under state 
statutes and constitutions.
    That work of education and professional training of allied 
professionals and even more importantly, sufficient financial support 
to provide more breadth and depth to victim services across the country 
is critical. Therefore, I offer my strongest encouragement to the 
members of Congress to not only continue to leave the Victims of Crime 
Act (VOCA) funding mechanisms intact, but to also increase funding to 
the Office for Victims of Crime and the federal programs regarding 
violence against women.
    For myself, being an attorney, I rationally understood that an 
accused person has the right to plead not guilty and to go to trial. As 
a victim, I knew he was the man who raped me, so it was hard to take 
that emotionally. The terrible sense of violation I experienced could 
easily have led me to substitute emotion for reason and principle, 
becoming the kind of victim who could not abide the critical legal 
distinction: that one is innocent until proven guilty. One victory over 
the rapist that I achieved was that his awful acts did not sway my 
commitment as an American and as an attorney to the United States 
Constitution and its proper protections against abuses of government 
power in regards to the arrest and prosecution of individuals accused 
of a crime.
    I wanted the fairest trial possible, so there would be no chance 
for an effective appeal. And of course, when the jury changed his 
status from ``accused'' to ``convicted'' and he was no longer the 
``defendant'' but the recognized ``offender,'' I was relieved and felt 
validated.
    There is one thing that I still am angry about: he was sentenced to 
48 years in prison, but there is absolutely no requirement that he ever 
have to come to grips with the pain he caused me nor the wife and four 
children he left behind. I'd rather he have to at least periodically be 
part of a demanding sex offender treatment program, and be evaluated 
and considered for release, than waste taxpayers' money keeping him 
locked up for his minimum of 26 years only to get out even more angry 
and ready to do violence again.
    I have been able to embrace a holistic, balanced approach to 
thinking about how we need to respond as a society to crime. This 
paradigm is often referred to as restorative justice. We must strike 
the balance between feeling strongly about wanting to ``take 'em away 
and lock 'em up'' with our fundamental American ideals--beliefs in 
fairness and justice, and the responsibility of both the government and 
the people to treat everyone--in this realm, victim and offender 
alike--with dignity and respect. Key restorative principles also 
include the importance of accountability and of competency 
development--the need to help each develop the competency necessary to 
heal, to repair, and to be productive citizens.
    Americans' respect for individual liberty is coupled with our 
expectation of individual responsibility, or accountability. It is now 
common for those in the criminal justice system to just assume that 
punishment equates with accountability. However, when we talk of 
governmental accountability--a frequent buzzword these days--there 
seems to be an assumption closer to the American Heritage Dictionary 
definition: ``a form of trustworthiness; the trait of being answerable 
to someone for something or being responsible for one's conduct.''
    From a restorative justice perspective, the latter definition--
``being answerable to someone . . . for one's conduct''--fits what is 
owed by the offender to the victim and to the greater public, not to 
the amorphous ``state.'' We have to determine who has been harmed--such 
as individuals, family members, neighbors, the community at large? And 
then they determine in what ways they have been harmed and in what 
manner could those harms be repaired, literally or symbolically. Then, 
all the stakeholders, collectively, should determine whose obligation 
is it to repair the various harms and how that should be done in 
meaningful, practical, measurable, ways and as efficiently as possible.
    Using my own experience as an example: I was harmed, as was his 
family. There was certainly physical harm, at least to me and to his 
wife, who had been previously battered (it was through those court 
records that they could produce a photo of him that I was able to 
identify). We all no doubt experienced a variety of emotional and 
financial harm as well. Who owes the repair? The rapist at least. Not 
ever being told any of his background other than he was just one year 
out of the service, I do not know who, if anyone, may have been 
responsible for contributing to his psychological makeup and attitudes.
    [In some instances, especially involving juveniles, the parents' 
culpability comes to light as well. In some circumstances, there are 
others spurring on the criminal behavior, such as kids spreading 
rumors, leading to a fight among students.]
    What about my landlords for the poor lighting, lock system, etc., 
that allowed his entrance? Yes, they owe, and they did pay me some 
compensation, which was handled in the civil realm, which only measures 
harm by the dollar. However, in the criminal realm, the assumption is 
that the ``debt owed to society'' is only payable to the State, and is 
measured specifically by time under state control--either in the 
community or in some form of lock-up, and/or possibly other 
restrictions on behavior, fines, requirements for attending programs, 
and only occasionally financial restitution, which is often 
uncollectible or uncollected.
    How can someone ``repair'' the harm done when they forcibly violate 
someone's personhood? Obviously, they cannot do something as simple and 
direct as paying back the value of a stolen car or replacing a broken 
window. However, I, like many victims, come to feel that the offender 
owes me, personally, based on my needs.
    What are some of the greatest needs of victims? Of course, first is 
safety, which, unfortunately can never be fully guaranteed.
    Often ranking stronger in victim studies than the need for 
retribution is the need to experience some control over our lives--to 
have the experience make some sense; to have answers to the questions 
that plague us. I had to do my own spiritual work to understand what 
was the ``purpose'' or ``meaning'' in my own life.
    But regarding the people who do harm, we may realize that in 
general, some people are just ``messed up'' or ``mean and evil.'' But 
still, the questions about the offender remain: ``Who ARE you? Why did 
you do this? Why me? Do you have any idea what you have done to me?'' 
They go on: ``How did you do it? Have you done it before? What makes 
you think it is okay to treat people like this? Are you going to hurt 
me again? Will you hurt someone else? What will it take to get you to 
change?''
    Victims also rate accountability as very important, but define it 
as the offender acknowledging, understanding and accepting personal 
responsibility for the harm and doing something about it, whether in 
the form of paying something back financially, performing some service 
to the victim or the community, and particularly making efforts to 
change the attitudes and the behaviors that created the harm. When 
victims are able to know that the person who hurt them ``gets it,'' 
even if they are unable (obviously) to go back and change things, and 
if they are capable, will pay them and the community back in some way, 
and will not re-offend--this goes an incredibly long way in helping the 
person move from ``victim'' to ``survivor'' and hopefully, even to 
``thriver.''
    One of the reasons that victims feel so frustrated with the 
criminal justice and correctional systems is that they do not get such 
opportunities. We can get so little information of what went on in the 
crime, what the system is doing, and what the outcomes are of court 
proceedings, probation, incarceration and parole. And I do not just 
mean being notified that someone is up for a hearing or is being 
released, or even where he or she is going to live and work, but more 
importantly, ``Where is his head at? Am I at risk? What does his family 
think of him--are they scared? Should I be?''
    A truly victim-centered (and restorative) approach to justice 
should afford the opportunity for victims to get their questions 
answered, to be part of the process in determining what the harm was 
and to be part of the process in determining how the harm can be 
repaired, including making agreements about material or symbolic 
obligations, and in fact to be directly involved in policy-making.
    Like the approximately other 96% of incarcerated people in the U.S. 
the man who raped me will be released. For me, true accountability to 
me and to the public lies squarely with two entities. The first is 
Michael Alexander Christopher, who needs to admit (unlike at trial) 
that he fought me, hurt me, and raped me, and that he understands what 
triggers that violence and is willing and able to do everything in his 
power to manage those triggers. And if he is not willing or capable of 
all of that? Then the California criminal justice system and the 
Department of Corrections are accountable to me and to the public to 
explain why they failed to bring him to that level of accountability. 
While I do not expect their success in every case, a do-nothing but 
``lock 'em up'' approach just does not satisfy this victim and I 
suspect many others as well.
    We have to redefine our values, policies and practices in order to 
create a balanced, restorative approach to dealing with crime.
    We need to realign our allocation of resources to support the 
needs:

        <bullet>  of victims of all kinds of crimes, whether there is 
        an accused or not,

        <bullet>  of offenders so that they can develop the 
        competencies needed make repair and be productive citizens, and

        <bullet>  for the training of victim-sensitive, restoratively-
        minded professionals who will also follow the laws already in 
        place for victim protection and participation, and

        <bullet>  of communities to be more involved and to be 
        supported in making the economic and social changes necessary 
        to create healthy children

    While I am very sympathetic to the frustrations of victims dealing 
with perceived inequities in how our adversarial system currently runs, 
as a fellow victim and a victim advocate, I must encourage Congress, 
victim rights supporters and the public, to devote every bit of energy 
to transforming an adversarial, punishment-driven system to one which 
is truly about changing and healing lives, not just processing cases.
    I would be more than happy to answer any questions and to provide 
the Chair and the Committee with more information about restorative 
justice.
    Thank you again for your time and attention.

    Mr. Coble. Thank you, Ms. Lawrence.
    Ladies, we impose the 5-minute rule against ourselves as 
well, so if you all can keep your sentences or responses as 
terse as possible. Now, I don't really mean to put you on a 
short leash, but time is of the essence for you and for us. We 
appreciate you all being here, and especially Ms. Campbell, who 
took the red eye from the Coast. I know that was not a pleasant 
encounter, but we appreciate that, Ms. Campbell.
    Ms. Campbell, I'll start with you. My State of North 
Carolina is the buckle of the NASCAR belt. Your brother was 
well known there.
    Ms. Campbell. Thank you, sir.
    Mr. Coble. Now, he was murdered, 18, 19 years ago?
    Ms. Campbell. 18.
    Mr. Coble. 18. Ms. Campbell, let me ask you this: What 
specific measures do you think can be addressed that will 
remedy some of the deficiencies in the criminal justice system 
when it comes to victims?
    Ms. Campbell. Boy, there's a lot of them, but I would say--
--
    Mr. Coble. Give me two or three.
    Ms. Campbell. First of all, thank you for saying that about 
my brother. He was a wonderful man. He just happened to be my 
brother.
    I think balancing the Constitution, where victims have some 
rights to the Constitution since there's 23 rights given to the 
criminal. At that time when it was written in 1786 it made 
sense because people represented themselves. It's much 
different today. But there's a whole long list of things that 
can be done that could help. I think one of the things that I 
am most emphatic about is the fact of the situation that 
attorneys and the perpetrators can knowingly lie and deceive 
the court. There just needs to be some sanctions on something 
like that.
    The families are hurt bad enough, but in order to make it 
appear there were other people involved in the killing, you end 
up being everything from a prostitute to a drug addict to the 
mafia, and those things are delivered to the court, and so it 
continues to hurt the family. They not only take our loved 
ones, they try to take our reputation. And there seems to be no 
sanctions. Nobody does anything about that, and I feel that 
that's very painful.
    Do you want me to go on with my list? I don't want to take 
more time than I should.
    Mr. Coble. Well, I may come back to you. Let me ask Ms. 
Leary a question.
    Ms. Leary, what do you say when a person says to you, 
``Okay, Ms. Leary, how does restitution work? When the prisoner 
is incarcerated he's judgment proof. His family has no funds or 
no money at all.'' How do you respond to that as far as paying 
to the victim?
    Ms. Leary. I think it's important that the offender pays 
something, and, you know, that's why it's important to 
investigate assets immediately, to freeze assets immediately. 
But if you do have an offender who just doesn't have any, and 
then he is in prison, there are prison work programs, and I 
believe that the offenders ought--whatever accounts they have 
from their wages or from money they get from family members or 
whatever, money should come from that and go to the restitution 
to the victims. It's critically important. Some States actually 
take up to 20 percent of an inmate's account for purposes of 
restitution. It's just as important for the offender as it is 
for the victim and the victim's family.
    Mr. Coble. Thank you, Ms. Leary.
    Dr. Coffman, describe the importance of the 
multidisciplinary units assigned to handle children's abuse 
specifically, (a) how are they funded? and; (b) how effective 
are they?
    Dr. Coffman. The multidisciplinary concept is one in which 
professionals from different agencies work collaboratively. The 
efficacy is largely related to the collaboration that takes 
place between the different professionals or among the 
different professionals. In our center, for example, the child 
protective services workers work hand in hand in the 
investigation with the police officers, so they don't duplicate 
efforts and they're not in conflict. And I would say that our 
efforts, instead of just being additive are actually 
synergistic. We really provide extremely effective response and 
very rapid response in investigation, as well as victim 
treatment.
    In terms of funding, our center basically exists in a 
building with a support system that's provided by a nonprofit 
organization called Childhelp, and all the agencies are 
independent. I work for a hospital and I'm based there. The 
police are funded by the city and so on.
    There are other centers that are funded differently. There 
is an up-front cost, obviously, to establishing these centers, 
but I think the cost savings down the road is incredible. We 
save a lot of money because of the efficiency of the 
investigations.
    Mr. Coble. Let me try to beat the red light by asking Ms. 
Lawrence a question. Ms. Lawrence, I understand your theory and 
concept of restorative justice, but explain to us, if you will, 
in practical terms, how that would work in a court system with 
a prosecutor on the one hand, a judge on the other, defense 
counsel on the other, and finally, a probation and/or parole 
officer?
    Ms. Lawrence. Interestingly, actually, there's a model that 
comes out of the Yukon called sentencing circles, but some 
courts are utilizing them here in the United States, where 
actually all of those parties that you just named, and the 
victim, if they are caring to participate, the offender and 
their support system, the support system of the victim, and in 
some places, anyone in the community who wants to show up has 
actually a circle, and there's--the people that are allowed 
into this kind of circumstance, the offenders, generally have 
had to jump through hoops to show their good faith that they're 
taking responsibility for one, admitting. So this is actually a 
sentencing process. And that they've already been making 
efforts to clean up their act, you might say.
    And they actually have a, maybe hours and hours long, 
circle, with some facilitator having each person around the 
circle passing a talking piece usually, be able to tell 
whatever the topic of that round is, and generally it starts 
with the telling of the stories of the impact. And then they 
actually come up with a sentence that is the sentence of the 
court. That's kind of the most obvious example given, your 
example. Other times judges will send people to a restorative 
process, which will be facilitated, clients prepared on both 
sides, the parties be willing. They have a conference, discuss, 
tell the stories, answer questions, discuss reparation, and 
then that reparation agreement is sent back to the court either 
as the whole or part of the sentence.
    Mr. Coble. Well, I asked for a practical explanation and 
you gave me a practical. I appreciate that.
    My time has expired. The gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Lawrence, are any of those programs mandatory?
    Ms. Lawrence. There's the rare case where a judge might say 
you're ordered into meeting with the victim, but they shouldn't 
be. Like with any mediation, many courts around the country 
now, and especially in Virginia; we have a very excellent 
system of mediation, for example, in family matters. The judge 
does not order a person to mediate. They order them into the 
mediation program which then can evaluate is this an 
appropriate case. So the same way for a restorative justice 
process. Is the offender being appropriate, and is the victim 
interested and willing?
    Some programs are using surrogate victims, so somebody else 
is coming speaking for the victim, so there's still a 
possibility for the offender to be accountable. And sometimes 
it's community representatives. Some of the models, often 
called Community Accountability Boards or panels, are using 
community members who are also trained, and they're meeting 
with, they're inviting the victim and their support, the 
offender and their support, and they're having the same kind of 
dialogue that I described. But if the victim doesn't come, you 
still have the community working out with the offender what the 
appropriate reparation agreement will be.
    Mr. Scott. Thank you.
    Ms. Leary, you mentioned prison work programs. We're doing 
what we can to keep them alive. There have actually been 
serious attacks on the prison work programs, but we're doing 
what we can so that you can have that important restitution.
    You mentioned uncollected debt. Do you have any idea of how 
much of this is actually collectible?
    Ms. Leary. I don't know how much is actually collectible, 
and I think that that's one of the biggest problems that you 
have in the system, is making a determination about what's 
truly collectible and what's not.
    One of the dangers, of course, is assuming, oh, you can't 
get blood from a stone; why bother? And the system then turns 
into a data entry system, so you have a tickler and you have to 
make entries at every, you know, certain intervals, and the 
time and energy is spent tickling the system as opposed to 
making concerted efforts to collect. I think there's a 
tremendous amount of training that needs to be done in order to 
determine what's collectible and what's not and to really go 
after it.
    Mr. Scott. And a criminal court judge can jail somebody for 
not paying what they can actually pay. You can't jail somebody 
for paying what they don't have, but you can revoke parole, 
probation if you have the ability to pay and don't.
    Ms. Leary. That's correct. But it is not a crime to 
willfully fail to pay restitution, and maybe it should be.
    Mr. Scott. Well, yes, but you can condition probation and 
parole on a good faith effort. You don't make the good faith 
effort, they can revoke parole, which has, back door, about the 
same impact.
    Ms. Leary. Right.
    Mr. Scott. You mentioned the victims' fund. Do I understand 
that to be the source of the funds to be totally funds from 
convicted prisoners?
    Ms. Leary. The VOCA money, yes. The crime victims' fund, it 
all comes from offenders.
    Mr. Scott. Should we not put some general fund money in 
there?
    Ms. Leary. I think that victims should be getting as much 
from the country as they possibly can. I think that the system, 
the criminal justice system is not balanced, and I believe that 
the only way that victims will get true justice is if they have 
their own parallel path. Their rights should not be derivative 
of the defendant's. They have their own set of rights, and 
general fund money would certainly help----
    Mr. Scott. Well, you know, if you're talking about general 
fund money, you're not even discussing whether or not you're 
affecting defendants' rights or not, and when you start 
talking, as I've mentioned, the constitutional amendment and 
balancing rights, you get into a debate. You don't get into a 
debate if you just put general fund money in there to help the 
victim.
    Ms. Leary. That's true, but----
    Mr. Scott. And if I could ask one other question, Mr. 
Chairman.
    You indicated for those who have a need, they can get up to 
$10,000?
    Ms. Leary. Yes.
    Mr. Scott. Do they have to show a need? I mean if you have 
a wealthy person who has suffered a loss, as opposed to a 
person who has been financially devastated, would the person 
financially devastated be able to get the money, whereas a 
person that would like it but doesn't really need it, would 
that be a factor?
    Ms. Leary. I think that fund is available regardless, up to 
the amount of 10,000.
    Mr. Scott. Up to the amount of actual loss?
    Ms. Leary. No, up to the amount of 10,000.
    Mr. Scott. Yes, but----
    Ms. Leary. Right, or the actual loss, whichever is less.
    Mr. Scott. But your subjective need is not a factor?
    Ms. Leary. No.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Leary. And that's just one model. You know, you can 
work from that. We'd be happy to work with the Committee to 
help you learn about various State models.
    Mr. Coble. I thank the gentleman from Virginia.
    The distinguished gentleman from Ohio, who is no stranger 
to this issue, Mr. Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman. I appreciate 
it.
    I want to once again thank all the witnesses for their 
testimony here this morning, and also the courage that they've 
shown in dealing with their own personal occurrences which have 
happened within their own families and to themselves.
    As I had mentioned in my opening statement, because of our 
involvement with Deborah Culberson, we've been very involved 
relative to the DNA testing when there are unidentified 
remains, and one might not be sure who the victim actually is, 
and they might be in a different State. Right now it's not 
particularly coordinated in this country, and the remains might 
be--there are literally thousands of incidences of remains 
somewhere that have never been tested. And so, that's someone's 
loved one, and somebody else is looking for a person. So you 
just--we've been remiss in dealing with this issue.
    Now, my question is, as I've mentioned before, in the 
previous bill, we were able to get some funding in there to 
encourage States to do the DNA testing, but at this point, it's 
not mandatory that they do the testing. And I would just like 
to see if any of the panelists have any opinion relative to the 
DNA testing, whether this is an important issue, if you have 
any ideas relative to how we might make this more effective, or 
anything that you would like to comment about. I'd be happy to 
hear from any of the witnesses that might want to weigh in on 
the issue.
    We'll start with Ms. Leary.
    Ms. Leary. Yes, thank you. I'm a great believer in the 
utility of DNA, both to protect the innocent and to convict 
those who are guilty. And I think that the potential for DNA is 
really untapped in many respects, certainly in the arena of 
missing persons, certainly in the arena of using DNA for less 
serious crimes, which I think would be very cost effective, 
burglaries and so on. You know, you could save a lot of 
investigative time up front if you used that technology.
    I think if the Government--if we could have public-private 
partnerships with some of these companies that are moving--that 
have moved into the DNA arena and are doing a lot of research 
and development with DNA, and if they can partner with public 
entities, we could make a lot more headway.
    There are a lot of issues for victims I think with DNA. You 
know, for instance, when you have a family with a missing 
person, when do you approach the family to try to get DNA 
samples from them, and how do you approach the family in a way 
that's sensitive, inclusive, and respectful of them. All of 
those things matter so much. You know, any of those contacts a 
victim has with the system can mean the difference between 
recovery and continuing trauma. So we need to be really 
sensitive about that. But we can do that. And I think that it 
behooves victims for this country to make much more aggressive 
and expansive use of DNA.
    Mr. Chabot. Thank you.
    Ms. Leary, if I could just follow up with you on another 
issue that you already talked about to some extent, but that's 
the issue of restitution. Is there anything that can be done on 
the Federal level to help the States collect the victim 
restitution that's been ordered? Is there anything that you can 
think of that we might be able to do in that area?
    Ms. Leary. Yeah, I think that there are a number of things 
that could be done. First of all, the States, I believe, ought 
to be able to intercept Federal income tax refunds for purposes 
of State restitution orders. They can already do that for child 
support, but they should be able to do the same thing with 
Federal tax refunds.
    In Colorado, their State tax refund intercept program gave 
them $3 million in collections in 2005. And when we talked to 
some of the folks in Colorado who run their really successful 
State restitution program, they said, ``I can only imagine what 
intercepting Federal tax returns would yield.''
    And it's amazing how many of these defendants file joint 
returns with their spouses, and even when money is taken from 
the refunds, they continue to file joint returns. There's 
potential there and it needs to be tapped.
    The other thing is that restitution orders--well, in the 
Federal arena, restitution orders right now are not final until 
all the appeals are settled in Federal cases, and I think that 
those restitution orders should be immediately enforceable.
    Mr. Chabot. Thank you.
    Let me ask a quick question about the victims' rights 
constitutional amendment. It's always been disturbing to me 
that the rights of the defendant are right there in the 
Constitution, a whole series of things, but the victims are 
nowhere there, and they're protected through statutes, either 
Federal or State, but sometimes the Constitution that's 
protecting the defendant is in conflict with the constitutional 
rights of the accuser. You had mentioned, I think your 
testimony was you don't necessarily--I think you're opposed to 
the constitutional amendment, correct?
    Ms. Lawrence. I've grappled with it over the last 10 years, 
having worked for NOVA, which is one of its major advocates, 
and felt for a while it was necessary. But I think when we look 
first about why the constitutional issues are there is to deal 
with governmental abuse, and that's why the protections are 
there, to avoid somebody being wrongfully accused and 
wrongfully convicted.
    Mr. Chabot. But I thought in your testimony that----
    Ms. Lawrence. Yeah, victims are not in that boat. I won't 
say I'm entirely against it. I just think all the energy that 
goes into trying to get these individual victims' rights 
enforced, even though it's important, should go into trying to 
transform a system that's been failing all along and will 
continue to fail if we do not do something major to change our 
basic approach.
    Mr. Chabot. Since you had just touched on it, basically in 
opposition, I thought perhaps we ought to have somebody else, 
maybe Ms. Campbell, who might want to give her opinion relative 
to the victims rights constitutional amendment, whether or not 
we ought to at least at some point still push for that.
    Ms. Campbell. I can't imagine any country, or anyone, 
feeling that a criminal should have more rights than the 
honest, law-abiding situation. It absolutely--looking at every 
single angle, I cannot imagine supporting something like that.
    Mr. Chabot. When you say supporting something like--you 
mean, in other words----
    Ms. Campbell. Supporting that the criminals have more 
rights. I'm sorry. I didn't explain that well.
    Mr. Chabot. No, that's okay.
    Ms. Campbell. I mean we're like this. When I walk into a 
courtroom today--and it depends what State you're in--every 
State in America should be covered by constitutional rights for 
the honest law-abiding citizen, not just the criminal having 
the rights.
    Mr. Chabot. So you do still believe that we should at some 
point move forward----
    Ms. Campbell. Absolutely, absolutely.
    Mr. Chabot [continuing]. With the victims rights 
constitution?
    Ms. Campbell. Yeah. Yesterday in the courtroom----
    Mr. Coble. The gentleman's time has expired.
    Mr. Chabot. Thank you very much.
    Mr. Coble. I think we have a vote on. I think we have time 
for Mr. Gohmert to examine the witnesses. Mr. Gohmert.
    Mr. Gohmert. Well, I'll be brief and just say thank you. As 
a former judge and chief justice, I'm well familiar with the 
plight.
    And, Ms. Lawrence, thank you for not allowing the felon, 
the criminal to assault you twice. As you know, as all of you 
know, so often some violent criminal thug not only commits an 
assault on a person and that person's family, but also allows 
that assault to victimize them the rest of their lives, through 
the grief, hate, anger, fear, combination of those that just 
overshadows everything. So, obviously, you wouldn't be doing 
what you were doing unless you knew that your actions helped 
bring people out of the valley of the shadow of fear and anger 
and hate and grief. So thank you for what you're doing. I 
believe in what you're doing. I've seen firsthand.
    I believe in our adversarial system. You know, with all its 
faults, it is the best there is, but it doesn't mean we can't 
improve it. And Texas has adopted a victims' bill of rights and 
that helped some, but there's still work to be done, not only 
in Texas but everywhere.
    I applaud your efforts with regard to money. People need to 
know there's not only a price to be paid by incarceration, but 
also financially, and, you know, Ms. Leary, I think you're 
right, even if they're in prison they can work, and even if 
it's pennies, the family knows they're having to earn and work 
and remember why it is they're doing that, and to pay back. But 
as you all know, there's no amount of money that replaces what 
a victim or the victim's family's been through, but it still 
helps, and it helps with recovery.
    So I applaud you, as someone who's been a witness to 
destruction and sometimes as a judge, you know, your heart just 
aches for the victim's family, and I would never, as a judge, 
hold it against someone that they utilized their constitutional 
rights. They have a right to the best defense they can get. 
However, if someone is guilty and found guilty beyond a 
reasonable doubt, then that means that what they put an 
innocent victim through was an additional offense, and they 
knew it as it occurred, and so that often found its way into 
the additional sentence that may have been more harsh than if 
they had put up a great defense, but not attacked a victim they 
knew was not at fault.
    So anyway, there are judges that think like that, and so, 
you don't necessarily verbalize it so the victim understands 
that the assault that occurred in the courtroom added to what 
the sentence is, but it happens, for what that's worth.
    But anyway, thank all of you for your work. I do think 
that, Mr. Chairman, I applaud your having the hearing and 
pushing this issue. I think that as a Federal Congress, we 
ought to do something--and as you all talked about, and it 
really makes me feel good to see you get the big picture too. 
It's not only helping victims, but it's doing something to try 
to keep that person from coming out of prison with nothing but 
hate and additional knowledge about how to hurt people. So we 
need to do a better job there.
    I do have concerns about a Federal Congress dictating to 
States what they have to do, because I am an advocate of 
States' rights as well, but would hope that those States would 
work on their own, and also look at our model, what we create 
and do through our actions here.
    But thank you. Obviously, a vote's on. But I can't tell you 
adequately with words how much I appreciate what you're doing 
for people an for victims.
    Mr. Coble. I thank the gentleman from Texas.
    We have conclude this----
    Mr. Scott. If I may, Mr. Chairman. The tax returns, there's 
also lottery tickets. If you owe fines, you can get your 
lottery tickets--in fact, there was a report where a gentleman 
who won a lottery ticket, went to cash it in, and just before 
he went in, remembered he owes the State fines, so he had his 
buddy go in and cash in the ticket. Unfortunately, as soon as 
the buddy cashed it in, he owed child support. [Laughter.]
    Ms. Leary. Great. You ought to be able to curtail what they 
buy.
    Mr. Coble. Folks, on that note, we'll conclude. Ladies, 
we've got to go vote and I don't want to keep you all here. Ms. 
Campbell, you have some other points to mention, and will list 
them here. Thank you all for your contribution.
    In order to ensure a full record and adequate consideration 
of this important issue, the record will be left open for 
additional submission for 7 days. So any written questions by 
the Members to you also must be submitted within that 7-day 
timeframe.
    So you had other measures you wanted to share with us, Ms. 
Campbell. If you don't mind, send those to us in writing, if 
that would be okay with you.
    This concludes the oversight hearing on Victims and the 
Criminal Justice System: How to Protect, Compensate and 
Vindicate the Interests of Victims.
    Thank you all for your appearance today, and pardon us for 
our abrupt departure, but we have to go vote. The Subcommittee 
stands adjourned.
    [Whereupon, at 11:16 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
